IN THE SUPREME COURT OF THE UNITED STATES
No.
Lee Mulcahy, Petitioner,
V.
Aspen Pitkin Housing Authority, Respondent.
CERTIFICATE OF COMPLIANCE WITH RULE 33.1(g)
I, Lee Mulcahy hereby certify that, according to the word-count tool in Google
Chrome, the Petition for Certiorari by Petitioner consists of 4932 words, including
footnotes and including the sections enumerated by Rule 33.1(d). The Brief therefore
complies with Rule 33.1(g).

Lee Mulcahy, PhD, pro se

Subscribed and sworn to before this 7th day of May, 2020.
I am duly authorized under the laws of the State of Colorado to administer oaths.

KELBY FARIAS

mary Public

NOTARY PUBLIC
STATE OF COLORADO
NOTARY ID #20184045165
My CtorranWon Expire* November26,2022

